                    February 22, 2002

                    THOMAS G. DAY
                    VICE PRESIDENT, ENGINEERING

                    SUBJECT:	 Audit Report - Performance of Automated Flat
                              Sorting Machine 100
                              (Report Number DA-AR-02-001)

                    This report presents the results of our self-initiated audit of
                    the Automated Flat Sorting Machine 100 (Project
                    Number 01BA010DA000). The objectives of our audit
                    were to assess the reasonableness of deployment
                    strategy, implementation, financial benefits, and
                    integration.

Results in Brief	   We determined that key deployment activities for the flat
                    sorting machines were reasonable. The Postal Service
                    used a standard economic model and deployment
                    schedule to support its deployment strategy,
                    implementation, and financial aspects of its program. In
                    addition, it considered the impact on other Postal Service
                    initiatives such as the Information Platform.

                    However, we are concerned that flat sorting machines will
                    be underutilized at the end of the second phase of
                    deployment due to changes in initial assumptions. We
                    recommended management recalculate the projected
                    return on investment. We also recommended that the
                    underutilization issue be addressed before going forward
                    with additional purchases.

                    Management provided an acceptable alternative action in
                    lieu of our first recommendation and agreed with the
                    second recommendation. We find management’s actions
                    responsive on both accounts since it directly addressed our
                    findings. Management’s comments, in their entirety, are
                    included in the appendix of this report.
Performance of Automated Flat Sorting                                                     DA-AR-02-001
 Machine 100




    Background
                       In June 1998 and April 2000 the Board of Governors
                                      approved the purchase of 175 and 3621 new flat sorting
                                      machines with a capital and expense funding of
                                      approximately $446 million and $579 million respectively.
                                      These machines will replace the aging 881 flat sorting
                                      machines.

                                      These new flat sorting machines are equipped with an
                                      automatic feeder that increases input speed and
                                      throughput, and an on-site video coding system that allows
                                      real-time processing of nonreadable mailpieces. As a
                                      result, the new flat sorting machines will reduce labor hours
                                      associated with flat mail processing and improve overall
                                      productivity.

    Objectives, Scope,
               The objectives of our audit were to assess the
    and Methodology
                  reasonableness of the flat sorting machine deployment
                                      strategy, implementation schedule, potential financial
                                      benefits, and integration with other Postal Service
                                      initiatives.

                                      In reviewing the purchase decisions for flat sorting
                                      machines, we assessed the reasonableness of
                                      assumptions the Postal Service made in its Corporate Flats
                                      Strategy and Decision Analysis Report related to flat
                                      volumes, machine capacity (throughput), maintenance
                                      hours, and processing days. To assess potential
                                      deployment alternatives, we conducted interviews with the
                                      responsible contracting officer. We did not test the validity
                                      of data used in our analysis.

                                      This audit was conducted from August 2001 through
                                      February 2002, in accordance with generally accepted
                                      government auditing standards and included such tests of
                                      internal controls, as were considered necessary under the
                                      circumstances. We discussed our conclusions and
                                      observations with appropriate management officials and
                                      included their comments, where appropriate.

    Prior Audit Coverage	             We did not identify any prior audits or reviews related to the
                                      objectives of this audit.


1
    Three machines are to be used for training.



                                                             2
                                                  Restricted Information
Performance of Automated Flat Sorting                                                              DA-AR-02-001
 Machine 100




    Flat Sorting Machines         We concluded that the flat sorting machines may be under-
    are Underutilized             utilized because:

                                       •	 Mail volumes are lower than anticipated.
                                       •	 The machines can operate at higher capacities.
                                       •	 Available machine processing days can be

                                          increased.


                                  The total mail and flat sorting machine volumes are lower
                                  than anticipated. While the flat sorting machine Decision
                                  Analysis Report forecasts zero flat volume growth, the
                                  Postal Service Five-Year Strategic Plan projects overall
                                  volumes were to decline by 2 percent. In determining flat
                                  sorting machine volumes for the Decision Analysis Report,
                                  estimates were obtained from associate offices for the
                                  incoming secondary mail currently sorted at plants and
                                  associate offices. Because associate office flat volumes
                                  were not previously captured via machine counts, the
                                  processing and distribution centers relied on good faith
                                  estimates to justify their machine orders. These estimates
                                  may have been misstated. Moreover, the Breakthrough
                                  Productivity Initiative recorded volumes for fiscal
                                  years (FY) 2001 and 2000 show total flat volumes at 7 to
                                  10 percent below “Corporate Strategy” expectations.

                                  In addition, the flat sorting machines can operate at higher
                                  capacities than originally anticipated, and thus, throughput
                                  capacity may have been understated when the initial
                                  Decision Analysis Report was approved. Based on
                                  preproduction test results, the Decision Analysis Report
                                  projected throughputs of 13,989 to 14,291 pieces per hour.
                                  However, throughput averaged 9,356 pieces per hour
                                  during FY 2001. While average throughputs per machine
                                  for 150 deployed sites fell below projections, five sites
                                  achieved throughputs greater than 18,000 pieces per hour
                                  per machine in at least one accounting period.2 This
                                  indicates the possibility of significantly higher throughputs
                                  than was originally forecasted, thereby, potentially reducing
                                  the number of machines needed for a mature or declining
                                  flats market.

2
 Mid-Florida (accounting period 13), Orlando (accounting period 13), Sacramento (accounting period 13),
Minneapolis (accounting period 6 and 8), and Saint Paul (accounting period 2).



                                                        3
                                             Restricted Information
Performance of Automated Flat Sorting                                             DA-AR-02-001
 Machine 100



                               Further, the Postal Service processes mail year-round.
                               However, according to the Decision Analysis Report, the
                               flat sorting machine will only operate 286 days per year for
                               primary operations and 302 days per year for secondary
                               operations. Increasing the number of days that the flat
                               sorting machine operates could raise the machines’ overall
                               processing capacity, again potentially reducing the number
                               of machines needed.

                               Similar to our analysis, the Postal Service Breakthrough
                               Productivity group reported that flat sorting machines were
                               underutilized for FY 2001. Specifically, its performance
                               achievement report indicates the deployed flat sorting
                               machines, among other areas, were underutilized because
                               the Postal Service did not meet any of its machine
                               productivity targets. We believe that additional machines
                               may further challenge the Postal Service to meet its flats
                               machine processing productivity goals, as spreading the
                               fixed mail volume over more machines at a site reduces
                               the machine-specific productivity measure.




                               We recognize that the Postal Service expects to realize
                               significant savings resulting from the deployment of the flat
                               sorting machines. While this may be true, fully utilizing the
                               machines’ potential may further maximize the achievement
                               of expected savings.




                                                   4
                                        Restricted Information
Performance of Automated Flat Sorting                                             DA-AR-02-001
 Machine 100




 Recommendation
               Because the Postal Service is near the completion of its
                               second phase of deployment and all machine orders have
                               been made, we are not making any recommendations to
                               terminate the acceptance of remaining machines.

                               However, we recommend the vice president, Engineering,
                               in coordination with the senior vice president, Operations:

                                  1. Recalculate the impact of lower throughputs on
                                      expected return on investment.

                                  .

 Management’s	                 Management disagreed with the recommendation but
 Comments	                     provided an acceptable alternative action. Management
                               commented that the requirements analysis approach used
                               was sound and that the number of machines purchased is
                               appropriate and justified. The total quantity purchased is
                               based on the cumulative results of detailed requirements
                               models that were completed for each site. Machine
                               requirements were based on existing operating parameters
                               and ensured that service commitments were not
                               compromised.

                               Additionally, management also commented that the flats
                               volume data used in OIG’s analysis are inconsistent with
                               actual flats volume data (which does not show a decline in
                               volume) and the throughput data presented appears to
                               include downtime that is not included in the Decision
                               Analysis Report throughput projections.

                               Management stated that it is too early in the program to
                               effectively evaluate the Automated Flat Sorting Machine
                               100 Program since deployment has yet to be completed.
                               Performing the requested analysis would only provide a
                               snapshot and would ignore the performance ultimately
                               expected from this machine. Furthermore, updating only
                               throughput assumptions of over 200 site-specific models
                               while ignoring the other variables that have changed (such
                               as volumes, OCR read rates, etc.) since the original
                               analysis was done may be misleading. As such
                               management believed it would be more useful to perform a
                               utilization analysis after all of the machines have been
                               deployed and have been operational for at least 4 months.
                               Thus, they proposed to provide an AFSM 100 utilization
                               analysis in the first quarter of FY 2003 instead of



                                                   5
                                        Restricted Information
Performance of Automated Flat Sorting                                              DA-AR-02-001
 Machine 100


                               recalculating the economic impact of lower throughput
                               values at this time.

 Recommendation                We recommend the vice president, Engineering, in
                               coordination with the senior vice president, Operations:

                                   2. Address flat sorting machine underutilization before
                                      considering additional machine purchases.

 Management’s                  Management agreed with the recommendation and stated
 Comments                      that they would proceed with a future purchase if it is
                               determined that a capacity shortfall exists with current
                               deployed equipment.

 Evaluation of                 We find management’s proposal and actions responsive to
 Management’s                  our finding and recommendations 1 and 2. We appreciate
 Comments                      management’s comments that an extensive and detailed
                               requirements analysis was performed to justify the
                               automated flat sorting machine 100 purchase. We do not
                               take issue with this assertion; though we believe a top
                               down approach could also identify fractional machine over-
                               capacity at each site and opportunities to further
                               consolidate operations perhaps outside the existing
                               operating parameters.

                               For clarification purposes, our volume analysis was based
                               on Breakthrough Productivity reports that captured volume
                               processed by the automated flat sorting machines during
                               FY 2001. Based on lower machine throughput for
                               FY 2001, increased hours to prepare flats for processing,
                               and down time admittedly excluded, we believe that the
                               Decision Analysis Report stated return on investment may
                               not be fully realized within the stated time frame. However,
                               we applaud the Postal Service for taking measures to
                               mitigate these concerns by:

                                   •	 Testing flat mailpiece design characteristics to better
                                      optimize throughput.

                                   •	 Working with the mailers to prepare flat mail in an
                                      alternative method to reduce preparation hours and
                                      increase productivity.

                               In principle, initial Decision Analysis Reports are estimates
                               that may be adjusted as conditions change. Any periodic


                                                   6
                                        Restricted Information
Performance of Automated Flat Sorting                                           DA-AR-02-001
 Machine 100


                               analysis performed prior to full deployment may provide
                               valuable information to readjust deployment strategies and
                               financial returns within stated timeframes. Because the
                               Postal Service is nearing the end of deployment, a post-
                               utilization analysis would also have value in identifying
                               opportunities to increase machine productivity.

                               We appreciate the cooperation and courtesies provided by
                               your staff during the audit. If you have any questions,
                               please contact Tracy LaPoint, director, Developmental, at
                               (703) 248-2100 or me at (703) 248-2300.




                               Donna L. Edsall
                               Acting Assistant Inspector General
                                for eBusiness

                               cc: Patrick R. Donahoe
                                   John A. Rapp
                                   John R. Gunnels




                                                   7
                                        Restricted Information
Performance of Automated Flat Sorting                            DA-AR-02-001

 Machine 100



                    APPENDIX. MANAGEMENT’S COMMENTS




                                                   8

                                        Restricted Information
Performance of Automated Flat Sorting                            DA-AR-02-001

 Machine 100





                                                   9

                                        Restricted Information
